 U.S. DEPARTMENT OF ENERGY

 OFFICE OF INSPECTOR GENERAL




 REPORT ON THE

 INTELLIGENCE OVERSIGHT INSPECTION OF

 THE SPECIAL TECHNOLOGIES LABORATORY




 The Office of Inspector General wants to make the distribution of its
reports as customer friendly and cost effective as possible. Therefore, this
report will be available electronically through the Internet five to seven
days after publication at the following alternmative addresses:

                 Department of Energy Headquarters Gopher
                            gopher.hr.doe.gov

             Department of Energy Headquarters Anonymous FTP
                           vm1.hqadmin.doe.gov

     U.S. Department of Energy Human Resources and Administration
                               Home Page
                  http://www.hr.doe.gov/refshelf.html

 Ypur comments would be appreciated and can be provided on the Customer
Response Form attached to the report.




 Report No.: INS-O-96-01                  Office of Inspections
 Date Issued: October 13, 1996            Washington, D.C. 20585



 REPORT ON THE
 INTELLIGENCE OVERSIGHT INSPECTION OF
 THE SPECIAL TECHNOLOGIES LABORATORY
 TABLE OF CONTENTS

                                                                 PAGE

  I.   INTRODUCTION AND PURPOSE .............................      1
 II.   SCOPE AND METHODOLOGY ................................      1
III.   SUMMARY RESULTS OF INSPECTION ........................      2

 IV.   BACKGROUND ...........................................      3

  V.   RESULTS OF INSPECTION ................................      5

       A.   Distribution of the DOE Intelligence Procedures ..     5

       B.   Familiarity with the DOE Intelligence Procedures .     8

       C.   Periodic Review of Collected Information ......... 11

       D.   Requirement for Written Assurances ............... 14
       E.   Clarification of the DOE Intelligence Procedures . 17

       F.   Foreign Travel and Contacts Debriefings .......... 20
 U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
 OFFICE OF INSPECTIONS
 WASHINGTON, D.C. 20585

 REPORT ON THE
 INTELLIGENCE OVERSIGHT INSPECTION OF
 THE SPECIAL TECHNOLOGIES LABORATORY


 I.    INTRODUCTION AND PURPOSE

Executive Order (EO) 12863, "President's Foreign Intelligence Advisory
Board," dated September 13, 1993, requires Inspectors General of the
Intelligence Community to submit reports to the Intelligence Oversight Board,
on at least a quarterly basis, on intelligence activities that the Inspectors
General have reason to believe may have been unlawful or contrary to
Executive order or Presidential directive. Within the Department of Energy
(DOE) Office of Inspector General, responsibility for oversight of DOE's
intelligence activities, pursuant to EO 12863, has been assigned to the
Deputy Inspector General for Inspections.

To carry out this responsibility, the Office of Inspections performs reviews
to determine if intelligence activities within DOE are in compliance with
restrictions set forth in selected intelligence-related laws, Executive
orders, and DOE orders, guidelines or implementing procedures. Accordingly,
the purpose of this inspection was to determine if intelligence activities
conducted by the Special Technologies Laboratory (STL) were in compliance
with such restrictions. Our primary objectives were to: 1) evaluate STL
intelligence personnel's knowledge of these restrictions, and 2) review
procedures implemented by STL to identify, investigate, and report
questionable intelligence activities and/or abuses to higher officials.


 II.    SCOPE AND METHODOLOGY

We used the "Intelligence Oversight Inspection Guide" developed by the Office
of Inspections to conduct this inspection. The guide focuses on an
organization's conduct of foreign intelligence, counterintelligence, and
threat assessment activities, and its intelligence oversight training
program. The questions in the guide are based on Executive Order 12333,
"United States Intelligence Activities," dated December 4, 1981; the
"Department of Energy Procedures for Intelligence Activities" (DOE
Intelligence Procedures), which were approved by the former Attorney General
on October 7, 1992; and DOE orders and other directives.

Our inspection, which was conducted between February 1994 and February 1995,
included interviews with STL and DOE officials as well as a review of STL
files. We used the "Intelligence Oversight Inspection Guide" to ask STL
management and other employees questions regarding their knowledge of EO
12333 and the DOE Intelligence Procedures. We also interviewed officials
from the Office of Intelligence, which was redesignated as the Office of
Energy Intelligence during the inspection; the Office of Safeguards and
Security; and the Nevada Operations Office.
This inspection was conducted in accordance with "Quality Standards for
Inspections" issued by the President's Council on Integrity and Efficiency.


 III.   SUMMARY RESULTS OF INSPECTION

We found deficiencies in the distribution to DOE Field Intelligence Elements
of the "Department of Energy Procedures for Intelligence Activities," upon
their approval by the former Attorney General on October 7, 1992. The
Special Technologies Laboratory, therefore, conducted intelligence and
intelligence- related activities for 13 months without possessing the
approved procedures that governed such activities. Some of these activities,
as discussed below, were conducted contrary to the DOE Intelligence
Procedures. As a result of this finding, the Office of Energy Intelligence
distributed additional copies of the DOE Intelligence Procedures to the Field
Intelligence Elements. At the time of our review at STL, therefore, STL
employees had possessed the DOE Intelligence Procedures for four months and
had also received familiarization training on the Procedures. In this
regard, we found that the majority of STL employees we surveyed were familiar
with most provisions of the DOE Intelligence Procedures. We found, however,
that they were not familiar with the provisions regarding collection,
retention, and dissemination of information on "U.S. persons."

We found that STL employees were not conducting periodic reviews of
information collected under the DOE Intelligence Procedures to assure that
the information was being retained in accordance with the Procedures.

We found that the Office of Intelligence had not required Intelligence
Community agencies requesting approval of intelligence-related Work for
Others projects to provide, in accordance with Part IX of the DOE
Intelligence Procedures, written assurances regarding 1) health and safety of
DOE and DOE contractor employees conducting the projects, and 2) the
authority of requesting agencies to conduct "the activity for which support
or assistance is requested." We also found, therefore, that the Office of
Intelligence reviewed and approved approximately 400 requests for
intelligence-related Work for Others projects without having written
assurance from requesting Intelligence Community agencies that the projects
were in conformance with Executive Order 12333, "United States Intelligence
Activities," dated December 4, 1981. As a result of this finding, the Office
of Energy Intelligence issued documentation requiring Intelligence Community
agencies to submit the written assurances with their requests for approval of
such projects.

We found that the DOE Intelligence Procedures need to specify that the
intelligence procedures of the requesting Intelligence Community agency
govern those DOE activities, which are "beyond the scope of DOE's authority,"
in providing technical, analytical, or research assistance to the
intelligence activities of the agency that requested the assistance.

We also found that STL had inappropriately conducted foreign travel and
contacts debriefings because 1) the limited counterintelligence
responsibilities of the STL Security Work Package Manager did not authorize
him to conduct the debriefings as a counterintelligence official; and 2) DOE
had not deleted the requirement in DOE Order 5631.1B, "Security Education
Briefing and Awareness Program," dated December 31, 1991, for security
officials to conduct the debriefings. As a result of this finding, the
Office of Safeguards and Security revised DOE Order 5631.1B by issuing a new
order that deleted the requirement for security officials to conduct the
debriefings.


 IV.   BACKGROUND

Executive Order 12333, "United States Intelligence Activities," dated
December 4, 1981, governs the conduct of intelligence activities by all
agencies within the U.S. Intelligence Community. EO 12333 designates the
intelligence element of DOE as a member of the Intelligence Community and
assigns DOE general and specific duties and responsibilities in support of
the U.S. intelligence effort. Responsibility for "management, implementation
and oversight of [DOE's] intelligence activities pursuant to Executive Order
12333, except for those authorities and responsibilities of the Inspector
General and the General Counsel," was delegated to the Director, Office of
Intelligence, by DOE Delegation Order No. 0204-146, effective January 21,
1993.



 DOE Intelligence Procedures Adopted Pursuant to EO 12333

EO 12333 authorized Intelligence Community agencies to collect, retain or
disseminate information concerning U.S. persons only in accordance with
procedures established by the agency head and approved by the Attorney
General. On October 7, 1992, the former Attorney General approved the
"Department of Energy Procedures for Intelligence Activities," which were
adopted pursuant to EO 12333. The former Secretary of Energy established and
approved the DOE Intelligence Procedures on October 9, 1992, and stated that
the Procedures took effect ten days later on October 19, 1992.

Two supplements to the DOE Intelligence Procedures have been issued.
Supplement 1, dated April 18, 1994, is EO 12863, "President's Foreign
Intelligence Advisory Board." Supplement 2, "NN Reorganization: Status of
OCI and OTA Programs," dated August 19, 1994, discusses the status of the
Office of Counterintelligence (OCI) and the Office of Threat Assessment (OTA)
as DOE intelligence elements after the reorganization of the Office of
Nonproliferation and National Security (NN).

The DOE Intelligence Procedures have two stated intentions. They are
intended to 1) enable DOE Intelligence Components to carry out effectively
their authorized functions and to provide appropriate assistance to other
Intelligence Community agencies, and 2) ensure that DOE intelligence
activities and programs do not violate constitutional protections and other
individual rights of "U.S. persons" as defined in EO 12333, applicable laws,
other Executive orders, Presidential directives, or applicable DOE policy.

 Applicability of the DOE Intelligence Procedures

The DOE Intelligence Procedures apply to designated organizations and
individuals engaging in intelligence or intelligence-related activities
authorized by EO 12333. These organizations and individuals include 1) DOE
Intelligence Components, which are defined in the Procedures; 2) DOE
employees, detailees, contractor, and subcontractor employees acting on
behalf of DOE Intelligence Components when they are engaged in intelligence
activities authorized by EO 12333; and 3) all DOE Management and Operating
contractors, their subcontractors and employees engaged in intelligence-
related Work for Others. Intelligence-related
Work for Others includes in part: 1) work sponsored by an organization
specifically identified in EO 12333 as an intelligence component; 2) work for
which the cognizant technical DOE Headquarters official is the Director of
Intelligence; and   3) the Special Technologies Program that assists,
processes, and coordinates all requests from other Federal agencies seeking
DOE technical assistance in support of "counterterrorism, counternarcotics,
and related activities."

The DOE Intelligence Components include eight DOE Field Intelligence Elements
(FIEs) as designated by the former Director of the Office of Intelligence in
a September 3, 1992, memorandum. The memorandum stated that the FIEs were
components of Government-owned, contractor-operated laboratories performing
classified services pursuant to EO 12333 in support of the Intelligence
Community. The Special Technologies Laboratory was designated as one of the
eight DOE FIEs.

 STL Established at Request of Intelligence Community

STL, located at Santa Barbara, California, and operated by EG&G Energy
Measurements, was established by DOE in 1986 at the Intelligence Community's
request. STL's missions include in part:       1) conducting research and
development paid for by other government agencies and approved by DOE
Headquarters and the Nevada Operations Office, for emergency response, law
enforcement, intelligence, counterterrorism, environmental management, and
nuclear weapons; and 2) ensuring technologies developed for sensitive
intelligence applications are available for and applied to DOE missions such
as emergency response, treaty verification, reactor security, and waste
management. The senior STL official is designated the Special Technologies
Program Manager.

Two DOE offices provide management and oversight of STL activities. The
Program Manager for Special Technologies, Office of Energy Intelligence,
approves and monitors technological areas in which STL conducts Special
Technologies Program Research and Development. The Nevada Operations Office
provides day-to-day program management and oversight.


 V.    RESULTS OF INSPECTION

A.    Distribution of the DOE Intelligence Procedures

We found deficiencies in the distribution to DOE Field Intelligence Elements
of the "Department of Energy Procedures for Intelligence Activities," upon
their approval by the former Attorney General. The Special Technologies
Laboratory, therefore, conducted intelligence and intelligence-related
activities for   13 months without possessing the approved procedures that
governed such activities. As a result of this finding, the Office of Energy
Intelligence distributed additional copies to the FIEs.

Responsibility for management, implementation, and oversight of DOE's
intelligence activities pursuant to Executive Order 12333, "United States
Intelligence Activities," dated December 4, 1981, was delegated to the
Director, Office of Intelligence, by DOE Delegation Order No. 0204-146,
effective January 21, 1993.

 DOE Intelligence Procedures Not Received by DOE FIEs
Three DOE FIEs said that they did not receive the DOE Intelligence Procedures
upon their approval by the former Attorney General on October 7, 1992. The
STL Special Technologies Program Manager told us that neither he nor any of
the STL employees that we interviewed had the DOE Intelligence Procedures
until an official representing the Office of Intelligence provided them
copies on November 3, 1993. This date was approximately 13 months after
approval of the Procedures by the former Attorney General. We learned during
other inspections that the FIEs at the Idaho National Engineering Laboratory
(INEL) and at the Los Alamos National Laboratory (LANL) received the DOE
Intelligence Procedures approximately 6 months and 13 months, respectively,
after approval of the Procedures by the former Attorney General. The head of
the LANL FIE said, however, that he had a draft of the DOE Intelligence
Procedures more than a year prior to receiving the approved Procedures.

The STL Special Technologies Program Manager also told us that STL conducted
intelligence and intelligence-related activities during the 13 months they
did not have the approved DOE Intelligence Procedures that governed such
activities. As will be discussed in the next two sections of this report,
some of these activities were conducted contrary to the DOE Intelligence
Procedures.

 Comments from Management

In commenting on an earlier draft of this report, the Director, Office of
Energy Intelligence, stated, "As with all DOE Field Intelligence Elements,
the DOE Procedures were mailed to STL in Interim Draft format on May 29, 1992
[sic] and in final on October 26, 1992."

In commenting on an earlier draft of this report, the STL Special
Technologies Program Manager said that he had received the Interim Draft, but
that the draft had not been approved by the Attorney General. He said that
he therefore read the draft, then put the draft aside and waited for the
Attorney General-approved final procedures, which would authorize STL to
conduct intelligence and intelligence-related activities.


 Additional Copies Distributed to FIEs

An official and a representative from the Office of Energy Intelligence told
us that the Office of Energy Intelligence had distributed additional copies
of the DOE Intelligence Procedures to the DOE FIEs. The representative said
that as a result of our inspection and the inspection at INEL, the Office of
Energy Intelligence had mailed additional copies to each FIE. He also said
that he knew some FIEs had received the additional copies, but he did not
know if the Office of Energy Intelligence had verified that every FIE had
received them. The official told us that he also knew some FIEs had received
additional copies, either by mail or in training sessions. He said that he
did not know, however, if every FIE had received them.

The official from the Office of Energy Intelligence also told us that some
DOE FIEs had received Supplement 1 and Supplement 2 to the DOE Intelligence
Procedures from the Office of Energy Intelligence because these FIEs had
asked him questions regarding the supplements after receiving them in the
mail or in training sessions. The official said that he did not know,
however, if every FIE had received the two supplements.
 Conclusions

We found deficiencies in the distribution to DOE Field Intelligence Elements
of the DOE Intelligence Procedures upon their approval by the former Attorney
General on October 7, 1992. The Director, Office of Energy Intelligence,
stated that the final DOE Intelligence Procedures were mailed to all DOE
Field Intelligence Elements on October 26, 1992. Three FIEs, including STL,
said, however, that they did not receive the DOE Intelligence Procedures
until approximately 6 to 13 months after the Procedures were approved by the
former Attorney General. STL, therefore, conducted intelligence and
intelligence-related activities for 13 months without possessing the approved
procedures that governed such activities. Some of these activities, as will
be discussed later in the report, were conducted contrary to the DOE
Intelligence Procedures. As a result of this finding, the Office of Energy
Intelligence distributed additional copies of the DOE Intelligence Procedures
to the FIEs.

 Recommendations

We recommend that the Director, Office of Energy Intelligence:

        1. Confirm that each DOE Field Intelligence Element has a
copy of the "Department of Energy Procedures for Intelligence Activities,"
with both supplements.

        2. Establish procedures for future use to confirm that each
DOE Field Intelligence Element has received future supplements to the
"Department of Energy Procedures for Intelligence Activities."

In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with both recommendations. Regarding the
first recommendation, he stated that the Office of Energy Intelligence will
confirm by September 15, 1995, that the DOE Intelligence Procedures and both
supplements have been received by all DOE FIEs. We subsequently learned from
an official in the Office of Energy Intelligence that he had confirmed by
September 15, 1995, that the DOE Intelligence Procedures and both supplements
have been received by all DOE FIEs. Regarding the second recommendation, the
Director stated that procedures have been established "to ensure that each
FIE receives copies of all future supplements, memoranda and correspondence
pertaining to the DOE Intelligence Procedures."


B.   Familiarity with the DOE Intelligence Procedures

We found that the majority of employees we surveyed at the Special
Technologies Laboratory were familiar with most provisions of the "Department
of Energy Procedures for Intelligence Activities." We found, however, that
they were not familiar with the provisions regarding collection, retention,
and dissemination of information on "U.S. persons."

The DOE Intelligence Procedures state, "Each DOE Intelligence Component shall
familiarize its personnel with the provisions of Executive Order 12333,
["United States Intelligence Activities," dated December 4, 1981,] these
Procedures, and any instructions implementing" the Procedures that apply to
such component's activities.

 Survey to Determine Familiarity with DOE Intelligence Procedures
Of the 41 STL employees, we surveyed 13, including 8 managers, to determine
if they were familiar with the provisions of EO 12333 and the DOE
Intelligence Procedures, and to test the effectiveness of the STL oversight
training program. We asked all 13 employees the same questions regarding
their knowledge of EO 12333 and the DOE Intelligence Procedures.

From our survey we noted that all 13 employees: 1) had copies of EO 12333
and the DOE Intelligence Procedures; 2) had received training on EO 12333 and
the Procedures; 3) knew what the subject matter of EO 12333 was; 4) knew the
definition of "U.S. person" as defined in EO 12333; and 5) knew what channels
and procedures were available to report questionable intelligence activities
to STL management, the General Counsel, and the Inspector General. In our
opinion, the oversight training conducted by the Office of Intelligence and
the STL Special Technologies Program Manager, as discussed later in this
section, also provided STL employees with an awareness of what activities
constitute "questionable intelligence activities."

Our survey also revealed that most of the 13 STL employees were not familiar
with the provisions of the DOE Intelligence Procedures regarding collection,
retention, and dissemination of information on "U.S. persons." Of the 13
employees:

        o Twelve said that they could not collect information on
"U.S. persons."

        o Eight said that they could not retain information on "U.S.
persons."

        o Ten said that they could not disseminate information on
"U.S. persons."

 Training Conducted to Achieve Familiarity

The DOE Intelligence Procedures state that the Director, Office of
Intelligence, "shall ensure that training is conducted to achieve the
requisite familiarity" of each DOE Intelligence Component with the provisions
of EO 12333 and the DOE Intelligence Procedures. To ensure that such training
was conducted at STL, an official representing the Office of Intelligence
presented training on EO 12333 and on the DOE Intelligence Procedures to STL
employees on November 3, 1993, and on February 17, 1994. The STL Special
Technologies Program Manager said that he thought both sessions were
"beneficial" because the trainer presented the information more clearly than
did EO 12333 and the DOE Intelligence Procedures. A slide used to conduct
the training showed the categories of information on "U.S. persons" that may
be collected, retained, and disseminated by personnel of a DOE Intelligence
Component in accordance with the DOE Intelligence Procedures.

The STL Special Technologies Program Manager told us that on two occasions he
also conducted training on the DOE Intelligence Procedures and on EO 12333
with the majority of STL employees. He said that he wanted to ensure that
they were familiar with provisions in both documents and with the
applicability of both documents to STL's intelligence and intelligence-
related activities. He also said that the training focused on the definition
of "U.S. persons" and on the collection of information on "U.S. persons." In
this regard, the STL Special Technologies Program Manager said that he
emphasized that STL did not actively gather information on "U.S. persons" for
specific collection purposes, which he referred to as "classic targeting."

In commenting on an earlier draft of this report, the STL Special
Technologies Program Manager said he believed that STL employees probably
concluded, as a result of him emphasizing that they did not conduct "classic
targeting" of "U.S. persons," that they could not collect information on
"U.S. persons." He told us he had not intended, however, that STL employees
take from the training that they could not collect such information. He said
that the DOE Intelligence Procedures contain categories of information on
"U.S. persons," which they can and, as discussed in the next section of this
report, do collect.

 Comments from DOE Management

In commenting on an earlier draft of this report, the Director, Office of
Energy Intelligence, nonconcurred. He stated that:

        "No one at STL engages in, or needs to engage in traditional
'collection,' defined by the DOE Intelligence Procedures    as 'active
gathering,' of any intelligence information whatsoever. Indeed, this is what
the STL Manager has told the STL employees and is most likely what the
employees had in mind when answering the question."

Whether or not STL employees actually engage in "traditional collection," as
members of a DOE Intelligence Component they are supposed to be familiar, in
accordance with the DOE Intelligence Procedures, with provisions of the
Procedures. In this regard, six pages of the 28-page DOE Intelligence
Procedures contain provisions that authorize DOE Intelligence Components to
collect, retain, and disseminate information on "U.S. persons." Furthermore,
a slide used by an official representing the Office of Intelligence to
conduct training at STL on the DOE Intelligence Procedures and on EO 12333
showed the categories of information on "U.S. persons" that may be collected,
retained, and disseminated by a DOE Intelligence Component in accordance with
the Procedures.

In commenting on an earlier draft of this report, the Director, Nevada
Intelligence Center, told us that our review had raised issues regarding the
Nevada Operations Office's day-to-day program management and oversight of
STL. He said that as a result, he had staffed a plan through the Nevada
Operations Office and the Office of Energy Intelligence that would have him
more involved in day-to-day program management and oversight of STL's
intelligence and intelligence-related activities. The Director also said
that such involvement included ensuring that STL employees were familiar with
all provisions of the DOE Intelligence Procedures.

 Conclusions

We found that the majority of STL employees we surveyed were familiar with
most provisions of the DOE Intelligence Procedures. We found, however, that
they were not familiar with the provisions regarding collection, retention,
and dissemination of information on "U.S. persons." As indicated by the STL
Special Technologies Program Manager, this lack of familiarity may have
resulted from him emphasizing during training on the DOE Intelligence
Procedures and on EO 12333 that STL employees did not conduct "classic
targeting" of "U.S. persons."
 Recommendation

We recommend that the Manager, Nevada Operations Office:

        3. Ensure that STL employees are familiar with provisions of
the "Department of Energy Procedures for Intelligence Activities" regarding
collection, retention, and dissemination of information on "U.S. persons."

In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with this recommendation. He stated that
during "post-inspection reviews all current STL personnel were instructed in
clarifications of the provisions concerning 'U.S. persons.' Procedures are
in place that will familiarize new personnel with the procedures when they
join the organization."

In commenting on the official draft of this report, the Acting Manager,
Nevada Operations Office, concurred with this recommendation. The Director,
Nevada Intelligence Center, provided additional comments. He stated that the
STL Special Technologies Program Manager "continues to provide a vibrant
training program on [EO 12333 and the DOE Intelligence Procedures] . . . in
addition to the numerous training sessions provided by the Office of Energy
Intelligence . . . ." He also stated that, "Cognizance of [EO] 12333
requirements has become an integral part of STL's operations as a result of
the continual training."


C.   Periodic Review of Collected Information

We found that Special Technologies Laboratory employees were not conducting
periodic reviews of information collected under the "Department of Energy
Procedures for Intelligence Activities" to assure that the information was
being retained in accordance with the Procedures.

The DOE Intelligence Procedures state that collected information shall be
reviewed as follows:

        o "Each DOE Intelligence Component retaining any information
collected under these Procedures shall conduct periodic reviews to assure
that all such information is being retained in accordance with these
Procedures and that the information is relevant, timely, and necessary for
the performance of its functions.

        o "Such periodic reviews must be conducted at least once
each calendar year."

The DOE Intelligence Procedures define "collection" as the "active gathering
by an employee, a detailee, a contractor or an employee of a contractor of a
DOE Intelligence Component, of intelligence information for use in the course
of his official duties."

 STL Did Not Review Files Containing Collected Information

At the time of our review at STL, employees whom we interviewed had not
reviewed in more than a year files containing information that they had
collected under the DOE Intelligence Procedures. Two employees said that
they had not reviewed such information in more than a year; three employees
told us that such information had probably not been reviewed in "years."
The files that had not been reviewed contained information that STL employees
had collected on "U.S. persons" for purposes to which the DOE Intelligence
Procedures applied. The DOE Intelligence Procedures define "U.S. persons,"
in part as 1) a U.S. citizen; and 2) a corporation incorporated in the U.S.,
except for a corporation directed or controlled by a foreign government or
governments. These files contained advertising brochures on U.S.
corporations that STL employees had requested or obtained at "trade shows"
and used for general information about the corporations. Files also
contained "professional knowledge" information on U.S. corporations from
magazine and newspaper articles regarding such topics as nonproliferation and
nuclear waste disposal. In addition, files contained information on U.S.
citizens, such as business cards on individuals and records indicating who at
STL had received annual counterintelligence briefings and Sensitive
Compartmented Information recertification.


 Periodic Review Should Have Been Conducted

According to the DOE Intelligence Procedures, which were approved on October
7, 1992, all DOE Intelligence Components, to include STL, should have
conducted at least one periodic review of information collected under the
Procedures during calendar year 1993. As stated previously, STL employees,
however, did not receive the DOE Intelligence Procedures until November 3,
1993. STL employees thus were not aware of the requirement to conduct
periodic reviews until approximately one month before the calendar year
ended. Nevertheless, we believe that by the time of our review at STL in
March 1994, which was four months after STL had received the DOE Intelligence
Procedures, STL employees should have begun reviewing collected information
to assure that the information was being retained in accordance with the
Procedures.

We further believe that the Manager, Nevada Operations Office, had the
responsibility to ensure that STL employees were conducting periodic reviews
because the Operations Office provides day-to-day program management and
oversight of STL. In this regard, the Director, Nevada Intelligence Center,
said that he would be more involved in day-to-day program management and
oversight of STL's intelligence and intelligence-related activities. He told
us that such involvement included ensuring that STL employees conducted
periodic reviews of information that they had collected.

 Comments from DOE Management

In commenting on an earlier draft of this report, the Director, Office of
Energy Intelligence, stated that "retention of the information here involved
was proper and that the violation, if any, was technical in nature." The
Director further stated that "information obtained with consent from vendors
and related sources is not what this portion of the Procedures was directed
at, but, literally, such reviews should be conducted."

 Conclusions

We found that STL employees were not conducting periodic reviews of
information collected under the DOE Intelligence Procedures to assure that
the information was being retained in accordance with the Procedures. The
DOE Intelligence Procedures state that DOE Intelligence Components shall
conduct periodic reviews at least once each calendar year of retained
information that was collected under the Procedures. At the time of our
review at STL, however, some STL employees had not reviewed in more than a
yearinformation in their files on "U.S. persons" that they had collected
under the DOE Intelligence Procedures.

 Recommendation

We recommend that the Manager, Nevada Operations Office:

        4. Ensure that STL employees conduct periodic reviews of
information that they had collected under the "Department of Energy
Procedures for Intelligence Activities" to assure that the information is
being retained in accordance with the Procedures.

In commenting on the official draft of this report, the Acting Manager,
Nevada Operations Office, concurred with this recommendation. The Director,
Nevada Intelligence Center, provided additional comments. He stated that STL
is awaiting a response from the Office of Energy Intelligence for approval or
disapproval of a proposed reorganization of STL to "better define STL as a"
DOE FIE. He further stated that STL will establish a program to conduct the
periodic reviews after receiving the response from the Office of Energy
Intelligence, which is anticipated "shortly after the beginning of [F]iscal
[Y]ear 1996."

In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with this recommendation.


D.   Requirement for Written Assurances

We found that the Office of Intelligence had not required Intelligence
Community agencies requesting approval of intelligence-related Work for
Others (WFO) projects to provide written assurances in accordance with Part
IX of the "Department of Energy Procedures for Intelligence Activities." The
Office of Intelligence, therefore, reviewed and approved approximately 400
requests for intelligence-related WFO projects without having written
assurance from requesting agencies that the projects were in conformance with
Executive Order 12333, "United States Intelligence Activities," dated
December 4, 1981. As a result of this finding, the Office of Energy
Intelligence issued documentation requiring Intelligence Community agencies
to submit the written assurances with their requests for approval of
intelligence-related WFO projects.

Part IX of the DOE Intelligence Procedures states that "In order for DOE to
[approve and] provide technical, analytical, or research assistance to the
intelligence activities of a requesting [Intelligence Community] member
agency," written assurances must be provided by the requesting agency that:


        o "the activity for which support or assistance is requested
is within the authority of the requesting agency and will be conducted in
accordance with [EO] 12333, all applicable U.S. laws, other Executive orders,
Presidential directives, DCIDS and the approved intelligence procedures of
the requesting agency.

        o   "any DOE employee or DOE contractor employee will not be
exposed to any unreasonable or undisclosed risks to his or her health or
safety as a result of providing the assistance requested."

 Office of Intelligence Had Not Required Written Assurances

A WFO Coordinator in the Office of Intelligence told us that prior to our
review at STL, the Office of Intelligence had not required an Intelligence
Community agency requesting approval of an intelligence-related WFO proposal
to provide the written assurances required by Part IX of the DOE Intelligence
Procedures. A representative from the Office of Energy Intelligence told us
that Part IX is applicable to the intelligence-related WFO program and that
the written assurances should have been required and used by the Office of
Intelligence to review proposed WFO projects.

 Office of Intelligence Required to Review WFO Projects

DOE Orders regarding the WFO program required the Director of Intelligence to
review and approve all proposals for intelligence- related WFO projects for
conformance with EO 12333. DOE Order 4300.2B, "Non-Department of Energy
Funded Work (Work For Others)," Change 3, dated January 7, 1993, which was in
effect during most of this review, required the Director of Intelligence to
review, validate, and, as applicable, certify/accept proposed intelligence-
related WFO projects. The order also stated that all intelligence-related
WFO projects were to be reviewed and approved by the Director, Office of
Intelligence, for conformance with EO 12333. DOE Order 4300.2B was
superseded by DOE Order 4300.2C, "Work for Others (Non-Department of Energy
Funded Work)," on December 28, 1994. The new order requires that all
"Intelligence- related activities will be conducted in accordance with [EO]
12333." DOE Order 4300.2C also states that the Director, Office of Energy
Intelligence, has the responsibility to review and approve proposed
intelligence-related WFO projects.

 WFO Projects Reviewed and Approved without Written Assurances

The WFO Coordinator also told us that the Office of Intelligence had reviewed
and approved approximately 400 requests for intelligence-related WFO
projects. As stated previously, however, the Office of Intelligence, prior
to our review at the Special Technologies Laboratory, had not required
Intelligence Community agencies requesting approval of intelligence-related
WFO projects to provide written assurances in accordance with Part IX of the
DOE Intelligence Procedures. The Office of Intelligence, therefore, reviewed
and approved WFO proposals without written assurance from requesting agencies
that the projects were in conformance with EO 12333.

 Comments from DOE Management

In commenting on an earlier draft of this report, the Director, Office of
Energy Intelligence, stated that the "requirement" for sponsoring
Intelligence Community agencies to provide the written assurances required by
Part IX of the DOE Intelligence Procedures "is now being observed." In this
regard, the WFO Coordinator in the Office of Intelligence told us that as a
result of our review at STL, the former Director, Office of Intelligence,
issued a memorandum, dated March 14, 1994, to agencies of the Intelligence
Community. The memorandum required addressees to add the following to their
initial WFO project statements of work:

       "This request is within this organizations [sic] authority in
accordance with [EO] 12333, applicable U.S. laws, other Executive orders,
Presidential directives, DCIDS and our approved intelligence procedures. DOE
employees or DOE contract employees will not be exposed to any unreasonable
or undisclosed risks to his or her health or safety as a result of providing
this assistance."

In addition, on April 26, 1995, the Director, Office of Energy Intelligence,
issued a memorandum, subject "Work Performed for Others at Department of
Energy Facilities ( Intelligence and Intelligence-related." Agencies of the
Intelligence Community were among the addressees. The purpose of the
memorandum was to update addressees on DOE's policy for intelligence and
intelligence-related WFO. The memorandum stated that WFO requests must
include the paragraph stated above.

 Conclusions

We found that the Office of Intelligence had not required Intelligence
Community agencies requesting approval of intelligence-related WFO projects
to provide written assurances in accordance with Part IX of the DOE
Intelligence Procedures. The Office of Intelligence, therefore, reviewed
and approved approximately 400 requests for intelligence-related WFO projects
without having written assurance from requesting Intelligence Community
agencies that the projects were in conformance with EO 12333. Departmental
policy, however, required that the Director, Office of Intelligence, review
and approve all intelligence- related WFO projects for conformance with EO
12333. As a result of this finding, the Office of Energy Intelligence issued
documentation requiring Intelligence Community agencies to submit the written
assurances with their requests for approval of intelligence-related WFO
projects.

 Recommendation

We recommend that the Director, Office of Energy Intelligence:

        5. Ensure that procedures for reviewing and approving
proposed intelligence-related Work for Others projects from Intelligence
Community agencies use the written assurances required by Part IX of the
"Department of Energy Procedures for Intelligence Activities."

In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with this recommendation. He stated that the
requirement for the Office of Energy Intelligence to ensure that "each WFO
project and the activities thereunder are within the authority of the
sponsoring agency . . . has now been incorporated into the [WFO] review and
approval process . . . ." He also stated that WFO project sponsors are
including in "newer [project] packages" statements that requested work is
within "the authority of their organization."


E.   Clarification of the DOE Intelligence Procedures

We found that the "Department of Energy Procedures for Intelligence
Activities" need to specify that the intelligence procedures of the
requesting Intelligence Community agency govern those DOE activities, which
are "beyond the scope of DOE's authority," in providing technical,
analytical, or research assistance to the intelligence activities of the
agency that requested the assistance.
 DOE Intelligence Procedures Apply Unless Specified Otherwise

According to the DOE Intelligence Procedures, intelligence activities
conducted by DOE may be governed by the DOE Procedures or by the intelligence
procedures of another Intelligence Community agency. Part II, "Applicability
and Scope," states that, "Unless specified otherwise," these Procedures apply
to any activities authorized by Executive Order 12333, "United States
Intelligence Activities," dated December 4, 1981. (emphasis added) As an
example, Part II specifies that the intelligence procedures of another
Intelligence Community member agency govern the activity when that agency has
tasked or requested that DOE "engage in the collection of foreign
intelligence information or the conduct of counterintelligence operations . .
. ."

 STL Employees Would Follow DOE Intelligence Procedures

Eleven of the 13 Special Technologies Laboratory employees we surveyed said
that they would follow the DOE Intelligence Procedures when providing
technical, analytical, or research assistance to the intelligence activities
of the Intelligence Community agency that had requested the assistance. As
stated previously, procedures that must be followed in order for DOE to
provide such assistance are contained in Part IX, "Provision of Technical,
Analytical and Research Assistance to Other IC Member Agencies," of the DOE
Intelligence Procedures.

In commenting on the official draft of this report, however, the Director,
Office of Energy Intelligence, stated that Part IX of the DOE Intelligence
Procedures "requires that sponsoring agencies provide written assurance that
the [Work for Others] project activity is 'within the authority of the
requesting agency and will be conducted in accordance with . . . the approved
intelligence procedures of the requesting agency.' The intent of the phrase
relating to conducting the activity in accord with the intelligence
procedures of the sponsoring agency . . . is to confirm that, in those
instances where a project activity is beyond the scope of DOE's authority, it
is within the authority of, and will be governed to that extent by, the
approved procedures of the sponsoring agency . . . . [E]xamples of WFO
project activities where the authority and procedures of the sponsor might be
applicable include offsite testing and training."

 Part IX of the DOE Intelligence Procedures Is Not Specific

We do not believe that Part IX specifies, as does the previously stated
example from Part II, that those DOE activities, which are "beyond the scope
of DOE's authority," in providing the requested support or assistance are
governed by the requesting agency's intelligence procedures. Part IX does
state, however, that the requesting agency must provide written assurance
"that the activity for which [DOE] support or assistance is requested is
within the authority of the requesting agency and will be conducted in
accordance with . . . the approved intelligence procedures of the requesting
agency." (emphasis added) In our opinion, this statement means only that
the requesting agency will follow its intelligence procedures when conducting
the "activity for which [DOE] support or assistance is requested."

We believe, therefore, that Part IX needs to state specifically that the
requesting agency's intelligence procedures govern those DOE activities,
which are "beyond the scope of DOE's authority," in providing technical,
analytical, or research assistance to the intelligence activities of the
Intelligence Community. Employees of DOE Intelligence Components, e.g., DOE
Field Intelligence Elements like STL, may be required to conduct intelligence
and intelligence-related activities that are restricted by the DOE
Intelligence Procedures when testing or training with technologies developed
through WFO projects. The activities, however, may not be restricted by the
intelligence procedures of the requesting agency. The DOE Intelligence
Procedures state that the Procedures "are intended to enable DOE Intelligence
Components to carry out effectively their authorized functions and to provide
appropriate assistance to other member agencies of the [Intelligence
Community]." DOE Intelligence Components, therefore, need to know clearly
that a requesting agency's intelligence procedures may allow them to conduct
activities, otherwise restricted by the DOE Intelligence Procedures, when
they provide technical, analytical, or research assistance to that agency.

 Conclusions

We found that the DOE Intelligence Procedures need to specify that the
intelligence procedures of the requesting Intelligence Community agency
govern those DOE activities, which are "beyond the scope of DOE's authority,"
in providing technical, analytical, or research assistance to the
intelligence activities of the agency that requested the assistance. Eleven
of the 13 STL employees we surveyed said that they would follow the DOE
Intelligence Procedures when providing such assistance. The Director, Office
of Energy Intelligence, stated, however, that WFO activities "beyond the
scope of DOE's authority" are conducted pursuant to the authority and
approved procedures of the sponsoring agency. DOE Intelligence Components,
therefore, need to know clearly that a requesting agency's intelligence
procedures may allow them to conduct activities restricted by the DOE
Intelligence Procedures, when they provide technical, analytical, or research
assistance to that agency.

 Recommendation

We recommend that the Director, Office of Energy Intelligence:

        6. Clarify Part IX of the "Department of Energy Procedures
for Intelligence Activities" by stating specifically that the intelligence
procedures of a requesting agency govern those DOE activities, which are
"beyond the scope of DOE's authority," in providing the requested support or
assistance.

In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with this recommendation. He stated that he
will issue by October 15, 1995, a memorandum clarifying the "relevant part"
of the DOE Intelligence Procedures.


F.   Foreign Travel and Contacts Debriefings

We found that the Special Technologies Laboratory had inappropriately
conducted foreign travel and contacts debriefings because 1) the limited
counterintelligence responsibilities of the STL Security Work Package Manager
did not authorize him to conduct the debriefings as a counterintelligence
official; and 2) DOE had not deleted the requirement in DOE Order 5631.1B,
"Security Education Briefing and Awareness Program," dated December 31, 1991,
for security officials to conduct the debriefings. As a result of this
finding, the Office of Safeguards and Security revised DOE Order 5631.1B by
issuing a new order that deleted the requirement for security officials to
conduct the debriefings.

DOE Order 5670.3, "Counterintelligence Program," dated September 4, 1992,
states that Field Office Counterintelligence Program Managers (CIPMs) shall
"Establish and conduct a program for foreign travel and contacts
debriefings."

 STL Security Official Conducted   Debriefings

At the time of our review at STL in March 1994, the STL Security Work Package
Manager had conducted about five foreign travel and contacts debriefings
within the previous twelve-month period. His counterintelligence
responsibilities, however, which were "limited to integrating initial and
annual briefing requirements into the Security Education/OPSEC Awareness
Program," did not authorize him to conduct the debriefings as a
counterintelligence official. The CIPM for the Nevada Operations Office
(NV), who was responsible for ensuring the "development and implementation"
of the NV Counterintelligence Program, confirmed that the STL Security Work
Package Manager was not assigned any additional counterintelligence
responsibilities.

The NV CIPM said that the STL Security Work Package Manager had conducted the
debriefings because "Safeguards and Security Orders" required security
officials to conduct the debriefings. DOE Order 5631.1B, which was in effect
at the time of our review at STL, stated that local security offices were to
debrief those travelers who submitted a hostile contact report regarding "any
security or other concerns arising as a result of" foreign travel. The NV
CIPM also told us that the requirements in "Safeguards and Security Orders"
for security officials to conduct foreign travel and contacts debriefings
should have been deleted when DOE Order 5670.3 was issued. He said that the
NV Contractor Counterintelligence Officer (CCIO) or he should be conducting
the debriefings at STL, based on requirements of DOE Order 5670.3. The NV
CIPM also said that security officials conducting the debriefings "inhibited
potential [counterintelligence] information from getting into
[counterintelligence] channels."

 Debriefing Requirement Should Have Been Deleted

Based on discussions with DOE Headquarters officials, we determined that the
requirement for DOE security officials to conduct foreign travel and contacts
debriefings should have been deleted from DOE Order 5631.1B. The Director,
Office of Counterintelligence, told us that historically DOE security
officials had conducted travel briefings, which included foreign travel and
contacts debriefings. He said that after the Office of Intelligence was
established, however, counterintelligence officials assumed the
responsibility in DOE for conducting the debriefings, which was formalized by
DOE Order 5670.3. The Director, Policy, Standards, and Analysis Division,
Office of Safeguards and Security, also said that counterintelligence
officials currently had the responsibility in DOE to conduct the debriefings.
He additionally told us that he was amending DOE Order 5631.1B to delete the
requirement for local security offices to debrief those travelers who had
submitted a hostile contact report. In response to our question, he said
that local security offices in the field had probably not been informed that
they no longer had the responsibility to conduct the debriefings.
 Office of Safeguards and Security Revised DOE Order 5631.B

Prompted by our inquiry, "and in the interest of ending confusion regarding
responsibility for the foreign travel briefing program," the Office of
Safeguards and Security revised DOE Order 5631.1B by issuing DOE Order
5631.1C, "Safeguards and Security Awareness Program," dated May 5, 1994. The
revision deleted the paragraphs in DOE Order 5631.1B containing the
responsibility for the foreign travel briefing program. A note issued with
DOE Order 5631.1C stated that "the responsibility for foreign travel
briefings is currently recognized as a function of the Director of
Counterintelligence."




 Comments from DOE Management

In commenting on an earlier draft of this report, the Director, Office of
Energy Intelligence, stated that, "When the revised DOE Order 5631.1B (now
5631.1C) was issued in May 1994, the STL Security [Work Package Manager]
discontinued the foreign travel    . . . debriefings resulting in placing that
responsibility solely upon the DOE/NV . . . CIPM and the . . . CCIO." The
Director further stated that the "DOE/NV CIPM has established an on-going
foreign travel [debriefing] program . . . [that] continues to be conducted in
accordance with DOE Order 5670.3."

An official from the Office of Counterintelligence said that the Office of
Counterintelligence had data indicating that CIPMs and CCIOs at other
Operations Offices had established and were conducting programs for foreign
travel and contacts debriefings in accordance with DOE Order 5670.3. The
official also said that he did not know, however, if CIPMs and CCIOs at every
Operations Office had established and were conducting the programs.

 Conclusions

We found that STL had inappropriately conducted foreign travel and contacts
debriefings because 1) the limited counterintelligence responsibilities of
the STL Security Work Package Manager did not authorize him to conduct the
debriefings as a counterintelligence official; and 2) DOE had not deleted the
requirement in DOE Order 5631.1B for security officials to conduct the
debriefings. DOE Order 5670.3, which was issued in September 1992, stated
that Field Office CIPMs had the responsibility to establish and conduct
foreign travel and contacts debriefing programs. Beginning in September
1992, therefore, the NV CIPM or the NV CCIO should have been conducting the
debriefings at STL instead of the STL Security Work Package Manager. As a
result of this finding, the Office of Safeguards and Security revised DOE
Order 5631.1B by issuing a new order that deleted the requirement for
security officials to conduct the debriefings.

 Recommendation

We recommend that the Director, Office of Energy Intelligence, in accordance
with the Managers, DOE Operations Offices:

        7. Ensure that Counterintelligence Program Managers at the
Operations Offices have established and are conducting foreign travel and
debriefings programs in accordance with DOE Order 5670.3.
In commenting on the official draft of this report, the Director, Office of
Energy Intelligence, concurred with this recommendation. He stated that the
"Office of Energy Intelligence, through the Director of the
Counterintelligence Division, will ensure that foreign travel briefings and
debriefings are conducted in accordance with DOE Order 5670.3."


                                                     IG Report
No._________________

 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.      What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would have been
helpful to the reader in understanding this report?

2.      What additional information related to findings and
recommendations could have been included in this report to assist management
in implementing corrective actions?

3.      What format, stylistic, or organizational changes might have
made this report's overall message more clear to the reader?

4.      What additional actions could the Office of Inspector
General have taken on the issues discussed in this report, which would have
been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

        Name                                Date
        Telephone                           Organization
When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202) 586-
1924.
2
